`-------------------

   VA Office of Inspector General
                                    OFFICE OF AUDITS AND EVALUATIONS



                                                                       Veterans Health
                                                                       Administration 

                                                                             Audit of 

                                                                        the Non-Recurring 

                                                                       Maintenance Program




                                                                                         May 7, 2014
                                                                                         13-00589-137
             ACRONYMS AND ABBREVIATIONS 


ARRA         American Recovery and Reinvestment Act of 2009
CAM          Capital Asset Manager
CSI          Clinical Services Initiative
FCA          Facility Condition Assessment
NRM          Non-Recurring Maintenance
OCAMES       Office of Capital Asset Management Engineering and Support
OIG          Office of Inspector General
PTR          Project Tracking Report
SCIP         Strategic Capital Investment Plan
VA           Veterans Affairs
VHA          Veterans Health Administration
VISN         Veterans Integrated Service Network




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                              Telephone: 1-800-488-8244 

                             Email: vaoighotline@va.gov

                  (Hotline Information: www.va.gov/oig/hotline) 

                   Report Highlights: Audit of VHA’s
                   Non-Recurring Maintenance Program

Why We Did This Audit                           As a result, VHA has not been able to
                                                adequately identify how it is using NRM
Veterans Health Administration (VHA’s)          funds to achieve program goals or ensure
Non-Recurring      Maintenance       (NRM)      projects are prioritized to correct significant
program expenditures increased from about       maintenance deficiencies, including serious
$824 million in FY 2008 to $1.8 billion in      patient safety issues. In addition, VHA
FY 2013. During this same period, VHA’s         cannot ensure that their annual NRM budget
reported facility maintenance backlog           requests are accurate or that they are taking
increased from $7.2 billion to $10.7 billion.   timely corrective actions on NRM projects
This audit assessed how effectively VHA’s       that miss project milestones.
NRM program addressed its most significant
maintenance needs.                              What We Recommended
What We Found                                   We recommended the Under Secretary for
                                                Health; Executive in Charge for the Office
VHA needs to increase the effectiveness of      of Management and Chief Financial Officer;
its NRM program. VA had reasonable              and the Principal Executive Director, Office
assurance that NRM program funds were           of Acquisition, Logistics, and Construction
used for allowable NRM purposes.                standardize NRM accounting procedures,
However, VHA did not have an adequate           provide program guidance, assign risk
process to track how much of the over           levels, estimate more accurate repair costs,
$1.8 billion NRM funds medical facilities       and monitor NRM project milestones.
spent to address its nearly $10.7 billion
identified facility maintenance backlog.        Agency Comments
VHA’s Facility Condition Assessment
(FCA) inadequately assessed risks to patient    The responding VA officials concurred with
safety and underestimated repair costs by       our    recommendations        and   submitted
$12.3 billion. Lastly, 74 of the 150 NRM        acceptable corrective action plans.
construction projects reviewed were not
completed within 1 year of their initial
planned completion date.

This occurred because VHA did not have an
adequate process to track their NRM project
expenses and adequately monitor expected
                                                          LINDA A. HALLIDAY
results. VHA’s FCA did not assess patient
                                                       Assistant Inspector General
safety risks, and provide reasonable cost
                                                       for Audits and Evaluations
estimates for identified maintenance
deficiencies. Additionally, VHA does not
routinely monitor NRM project schedules.
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1 


Results and Recommendations ........................................................................................................2 


     Finding          VHA Needs To Increase the Effectiveness of its Non-Recurring Maintenance 

                      Program....................................................................................................................2 


                      Recommendations ................................................................................................. 12 


Appendix A            Background ............................................................................................................15 


Appendix B            Scope and Methodology ........................................................................................16 


Appendix C            Statistical Sampling Methodology .........................................................................18 


Appendix D            Under Secretary for Health Comments ..................................................................21 


Appendix E            Executive in Charge for the Office of Management and Chief Financial 

                      Officer Comments..................................................................................................25 


Appendix F            Principal Executive Director of Office of Acquisition, Logistics, and Construction 

                      Comments ...............................................................................................................26 


Appendix G            Office of Inspector General Contact and Staff Acknowledgments .......................29 


Appendix H            Report Distribution ................................................................................................30 

                                                Audit of VHA’s Non-Recurring Maintenance Program



                    INTRODUCTION
Objective           This audit assessed how effectively the Veterans Health Administration’s
                    (VHA’s) Non-Recurring Maintenance (NRM) program addressed VHA’s
                    most significant maintenance needs in its medical facilities.

NRM Program         The NRM program’s purpose is to maintain a safe and efficient medical
Purpose             facility infrastructure. According to its annual budget submission, VHA uses
                    the NRM program as its primary means of addressing its facility
                    maintenance backlog, which represents their most significant infrastructure
                    needs. In addition, VHA uses NRM funding for Clinical Service Initiatives
                    (CSI), green energy projects, infrastructure improvements, and sustainment.

Non-Recurring       NRM program expenditures have risen from about $824 million in FY 2008
Maintenance         to approximately $1.8 billion in FY 2013. These expenditures include about
Program
                    $971 million in American Recovery and Reinvestment Act of 2009 (ARRA)
                    funds that supplemented the NRM program during the last 5 years. NRM
                    projects valued at over $1 million require approval from VA’s Strategic
                    Capital Investment Plan (SCIP) Board. Veterans Integrated Service
                    Networks (VISNs) approve NRM projects below $1 million.

Facility            VA contracts for Facility Condition Assessments (FCAs) to estimate its
Condition           maintenance backlog. Contractors perform FCAs at each medical facility
Assessment
                    once every 3 years on a rotating basis. Infrastructure systems in each
                    building receive A thru F grades based on their condition. Systems in poor
                    or critical condition are graded D or F and are considered deficiencies that
                    should have been addressed in previous years. For the purpose of this report,
                    we will refer to VHA’s D and F graded FCA deficiencies as its maintenance
                    backlog.

NRM                 In FY 2010 VA adopted SCIP, a 10-year strategic plan that governs VA’s
Program’s           capital projects funded through their major construction, minor construction,
Role in VA’s
SCIP
                    leasing, and NRM programs. SCIP is designed to address eight strategic
                    performance gaps within VA. The Facility Condition Gap is one of SCIP’s
                    performance gaps and is aimed at reducing VA’s maintenance backlog. VA
                    established a goal of reducing their maintenance backlog by 9.5 percent per
                    year over a 10-year period beginning in FY 2012.

                    The following appendixes provide additional information.

                       Appendix A provides details on the NRM program and SCIP.
                       Appendix B provides details on our scope and methodology.
                       Appendix C provides details on statistical sampling methodology




VA Office of Inspector General                                                                 1
                                                 Audit of VHA’s Non-Recurring Maintenance Program



                    RESULTS AND RECOMMENDATIONS
Finding 	           VHA Needs To Increase the Effectiveness of Its
                    Non-Recurring Maintenance Program

                    VHA needs to increase the effectiveness of its NRM program by
                    implementing an adequate process to track NRM funds used to address its
                    most significant maintenance needs. VA established an annual goal of
                    reducing its overall maintenance backlog by 9.5 percent and had reasonable
                    assurance that NRM program funds were used for allowable NRM purposes.
                    However, VHA could not track the amount of NRM funds that were spent to
                    address it’s nearly $10.7 billion facility maintenance backlog within the over
                    $1.8 billion of FY 2012 program expenditures. The maintenance backlog
                    increased at all eight medical facilities we visited. Additionally, VHA’s
                    FCA was inadequate in assessing patient safety risks and its cost estimates
                    were inaccurate. Lastly, 74 of the 150 NRM projects reviewed were
                    completed more than 1 year after their initial planned completion date.

                    These issues occurred because:

                    	 VHA did not have an adequate process to track how much NRM funds
                       medical facilities spent toward addressing the maintenance backlog, and
                       some medical facilities did not assign an individual accounting code to
                       track NRM expenses for each project below $1 million.
                    	 VHA did not have adequate procedures to determine if medical facilities
                       met SCIP’s performance goal of reducing the overall maintenance
                       backlog by 9.5 percent annually.
                    	 VHA’s FCA did not adequately assess patient safety or access to care
                       risks associated with identified maintenance deficiencies.
                    	 FCA contractors did not provide reliable cost estimates on identified
                       maintenance deficiencies.
                    	 VHA did not routinely monitor NRM project schedules and performance.

                    VHA was unable to adequately track NRM program expenditures to
                    determine whether they addressed their most significant maintenance needs.
                    In addition, using unreliable cost estimates to remediate significant
                    deficiencies compromises VHA’s ability to ensure that they are submitting a
                    reliable NRM budget request annually. Lastly, VHA does not provide
                    adequate assurance that they are taking timely corrective actions on NRM
                    projects, especially projects that significantly miss planned project
                    milestones.




VA Office of Inspector General                                                                  2
                                                     Audit of VHA’s Non-Recurring Maintenance Program


Spending on         Although VHA had reasonable assurance that NRM program funds were
Maintenance         used for allowable NRM purposes they cannot adequately determine how
Backlog Not
Tracked
                    much of the over $1.8 billion of FY 2012 NRM expenditures they spent to
                    address the maintenance backlog. We accounted for about $241 million that
                    VHA spent for green energy production goals. However, VHA could not
                    clearly show how much of the remaining over $1.6 billion was spent to
                    address the maintenance backlog, meet renovation needs, sustain the
                    infrastructure from becoming deficient, or establish CSI clinics.1

                    VHA categorized costs to upgrade and replace building infrastructure
                    systems as infrastructure improvement and categorized maintenance and
                    repair activities to keep facilities in good working order, including
                    renovation, as sustainment. This methodology did not allow VHA to
                    determine the amount of resources applied to reducing its maintenance
                    backlog since the program did not separately identify these costs. The U.S.
                    Government Accountability Office’s Standards for Internal Control in the
                    Federal Government states that accurate and timely recording of transactions
                    and events are necessary for management to control operations and make
                    decisions.

                    We identified how VHA spent the over $1.6 billion in FY 2012 to address
                    VA medical facility NRM needs by reviewing a statistical sample of
                    161 medical facility projects at 8 VA medical facilities, including 6 ARRA
                    projects, and estimating NRM spending by category. The ARRA projects
                    were similar in scope and purpose to the non-ARRA projects we reviewed,
                    except that none of the ARRA projects reviewed were used for CSI.

                    We collaborated with the facility engineers at our sampled sites to identify
                    the NRM funds used to address the maintenance backlog by identifying all of
                    the deficiencies addressed by each project and estimating the portion of the
                    project costs used to address those deficiencies. We categorized the
                    remaining project costs as infrastructure sustainment, renovation, or CSI.
                    Appendix A provides more information on renovation and CSI.




                    1
                      VHA identified about $45.9 million used to establish new CSI clinics using funds
                    approved for this use in FYs 2011 and 2012. However, they were unable to identify the CSI
                    spending for projects approved prior to FY 2011.



VA Office of Inspector General                                                                             3
                                                     Audit of VHA’s Non-Recurring Maintenance Program


                    Figure 1 provides our estimate of FY 2012 NRM spending, including ARRA
                    funds.

                             Figure 1. FY 2012 NRM Estimate Spending by Category
                                                 (in millions)




                      Source: VA Office of Inspector General analysis of each sampled project’s purpose and
                      cost data

                    VA needs to determine how NRM funds are spent and if it is achieving
                    maintenance backlog reduction goals established by SCIP. Without
                    determining how NRM funds are used VHA will be unable to accurately
                    predict the funding levels required to support each NRM spending category.
                    In addition, identifying how VA medical facilities use their funds to address
                    each category will improve VHA’s ability to ensure actual spending levels
                    reflect VHA’s competing priorities, such as addressing identified
                    maintenance needs, sustaining and renovating facilities, and establishing
                    high priority clinics.

                    In addition, five of the eight sampled medical facilities did not assign
                    individual accounting codes to track their NRM project expenses for projects
                    under $1 million, which amounted to about $13.7 million of over
                    $92.7 million of our total sample value. These facilities combined all of their
                    NRM projects that were less than $1 million under a single accounting code
                    for each fiscal year. Without individual accounting codes for each project,
                    VHA relied on facility engineers to enter project data manually on Project
                    Tracking Reports (PTRs). VA officials stated that not having individual
                    accounting codes for these projects made it difficult to monitor NRM
                    spending adequately.




VA Office of Inspector General                                                                                4
                                                        Audit of VHA’s Non-Recurring Maintenance Program


Maintenance         VHA’s reported facility maintenance backlog has steadily increased from
Backlog             nearly $7.2 billion in FY 2008 to almost $10.7 billion in FY 2013. This
Continues to
Increase
                    occurred despite VA’s goal of reducing the overall backlog by 9.5 percent
                    per year starting in FY 2012 and NRM expenditures increasing from about
                    $824 million in FY 2008 to almost $1.8 billion in FY 2013. Figure 2 shows
                    the growth of VHA’s maintenance backlog and expenditures from
                    FY 2008 through FY 2013.

                                  Figure 2. NRM Maintenance Backlog and Expenditures
                                                     (in millions)
                        $12,000                                                                 $10,653
                                                                                    $9,649
                        $10,000                                         $9,019
                                                $8,588       $8,385
                         $8,000     $7,196

                         $6,000

                         $4,000
                                                             $1,619     $1,832      $1,845      $1,785
                         $2,000                 $1,262
                                     $824

                            $0
                                     2008        2009         2010       2011        2012        2013

                                              NRM Spending            Maintenance Backlog

                        Source: VA OIG analysis of VA provided data

                    Annual NRM spending used to address VHA’s maintenance backlog is
                    insufficient to meet their 9.5 percent reduction goal. Also, with unreliable
                    FCA cost estimates used for budget planning and implementation, VA’s
                    budget requests lack assurance that VHA can effectively address their
                    significant needs in a timely manner.

                    The maintenance backlog increased at all eight medical facilities in our
                    sample. In the 3-year period between FCA assessments, the 8 facilities
                    addressed about 370 “D” and “F” deficiencies but added a little over 1,120 of
                    these deficiencies to the FCA.2 The reported estimates to address these
                    deficiencies increased from about $488.5 million to approximately
                    $648.5 million over the same 3-year period.




                    2
                     FCAs are conducted every 3 years on a rotating basis. The dates the FCAs were conducted
                    at our sample sites varied.



VA Office of Inspector General                                                                            5
                                                     Audit of VHA’s Non-Recurring Maintenance Program


                    Table 1 provides the number of maintenance backlog deficiencies at the eight
                    facilities and Table 2 provides the estimated cost to address those
                    deficiencies.

                                      Table 1. Number of “D” and “F” Deficiencies
                                                                                           Most
                            Facility           Previous
                                                             Added        Corrected       Recent       Change
                            Location             FCA
                                                                                           FCA
                      Little Rock, AR               532            56              6        582          9.4%
                      Tucson, AZ                    261           231             31        461         76.6%
                      West Palm Beach, FL            28            37             11          54        92.9%
                      Des Moines, IA                103            54             50        107          3.9%
                      Battle Creek, MI              515           376          127          764         48.3%
                      Albany, NY                    124           103             45        182         46.8%
                      San Juan, PR                   87            89             14        162         86.2%
                      Murfreesboro/
                                                    365           175             85        455         24.7%
                      Nashville, TN
                             Totals               2,015       1,121            369        2,767         37.3%
                      Source: OIG analysis of VA provided FCA data

                           Table 2. Estimated Cost to Address “D” and “F” Deficiencies
                                                  (in millions)
                                                                                           Most
                                               Previous
                       Facility Location                     Added        Corrected       Recent      Change
                                                FCA
                                                                                          FCA*
                      Little Rock, AR            $ 131.6      $     0.5       $ 0.10       $ 139.2       5.8%
                      Tucson, AZ                 $ 32.5       $ 15.5          $    5.30    $ 44.0       35.4%
                      West Palm Beach, FL        $ 13.1       $ 14.4          $ 6.10       $ 26.7     103.8%
                      Des Moines, IA             $ 15.4       $ 12.1          $    7.10    $ 23.4       52.6%
                      Battle Creek, MI           $ 44.9       $ 22.5          $ 9.30       $ 65.7       46.3%
                      Albany, NY                 $ 92.7       $ 60.9          $ 59.60      $ 106.4      14.8%
                      San Juan, PR               $ 80.0       $ 102.5         $ 22.80      $ 158.9      98.5%
                      Murfreesboro/
                                                 $ 78.3       $ 26.5          $ 13.60       $ 84.3       7.7%
                      Nashville, TN
                             Totals              $ 488.5      $ 254.9         $123.90      $ 648.5      32.8%
                      Source: OIG analysis of VA provided FCA data
                      *Note – Cost estimates on the most recent FCA are adjusted for inflation from the
                      previous FCA review and therefore are higher than the previous estimate plus deficiencies
                      added during the 3-year period.


VA Office of Inspector General                                                                               6
                                                 Audit of VHA’s Non-Recurring Maintenance Program


                    These increases occurred despite VA NRM program officials’ assertion that
                    addressing maintenance backlog deficiencies was the highest priority use for
                    NRM funds. However, VHA only used about $675 million (42 percent) of
                    the over $1.6 billion spent in FY 2012 to address the maintenance backlog.
                    In addition, VHA spent approximately $307 million (19 percent) of its
                    FY 2012 NRM resources addressing infrastructure sustainment issues to
                    prevent its structures from deteriorating and adding to the maintenance
                    backlog. This was about $422 million less than the over $729 million
                    VHA’s sustainment model predicted was needed to prevent the maintenance
                    backlog from growing. Appendix A provides additional information on the
                    sustainment model.

                    The maintenance backlog will continue to grow unless VA prioritizes
                    addressing it. Although the purpose of the NRM program is to maintain a
                    safe and efficient medical facility infrastructure, VA only spent about
                    61 percent of their NRM funds to address identified maintenance
                    deficiencies and prevent future FCA deficiencies. The remaining 39 percent
                    of NRM funds were used to address priorities other than maintaining the
                    existing infrastructure, such as reconfiguring space to change its function and
                    new construction for high priority clinics under the CSI category.

Facilities Do       To ensure that VA medical facilities prioritized their NRM funds effectively,
Not Expect To       they are required to submit a SCIP plan to VA’s Office of Asset Enterprise
Accomplish
Their SCIP
                    Management detailing how they plan to address each of their 8 SCIP gaps,
Objectives          which includes reducing their maintenance backlog by 95 percent within
                    10 years. However, medical facility officials stated that since budget
                    resources were not allocated based upon maintenance backlog needs and
                    projects over $1 million had to be approved by the SCIP Board, there was no
                    expectation that each facility would receive sufficient resources to
                    accomplish their SCIP plan objectives.

                    VHA was unable to determine if medical facilities achieved their
                    maintenance backlog reduction goals and did not have the ability to track the
                    amount of resources spent to address specific deficiencies. Therefore, it was
                    difficult to ensure that individual medical facilities followed their annual
                    SCIP plans and addressed maintenance deficiencies as proposed. About
                    98 percent of our sampled projects were approved prior to SCIP being
                    implemented. Since the new SCIP procedures have been in place, VHA is
                    still unable to track how NRM resources are spent and determine if the
                    prioritization of NRM projects has improved.

                    VHA needs to establish budgeting mechanisms and guidance to ensure that
                    their NRM resources are addressing VHA’s highest priorities since VHA
                    must use its limited NRM funds to address a variety of infrastructure needs.
                    Associating the spending approved to address specific gaps with progress
                    toward addressing those gaps would provide VHA with reasonable assurance



VA Office of Inspector General                                                                   7
                                                 Audit of VHA’s Non-Recurring Maintenance Program


                    that the facilities are effectively executing their approved SCIP plans to
                    address the facilities most significant maintenance needs.

Maintenance         Despite VHA’s large maintenance backlog, VHA’s FCA does not adequately
Backlog             identify maintenance deficiencies that may pose patient safety or access to
Jeopardizes
Patient Safety
                    care risks if the deficient system failed. Identifying these high risk
                    deficiencies would help VHA to ensure that VA medical facilities address
                    them timely. Another tenet of Standards for Internal Control in the Federal
                    Government states that controls are an integral part of an organization’s
                    planning, implementing, reviewing, and accounting for Government
                    resources and achieving effective results. Management controls, such as
                    conducting risk assessments and implementing financial controls, are
                    fundamental for identifying and addressing major performance and
                    management challenges in the Federal Government.

                    VA medical facilities’ aging infrastructure poses risks to patient safety and
                    access to care. VHA records show they have about 5,500 buildings with an
                    average age of about 52 years, more than 2 years over their expected 50-year
                    useful life. The FY 2013 FCA contains almost 57,000 poor or critical rated
                    deficiencies. This makes it essential that VHA perform risk assessments of
                    its maintenance backlog to identify critical deficiencies and ensure that the
                    NRM program fulfills its purpose of ensuring that VA’s infrastructure is safe
                    and efficient. Following are two examples of recent infrastructure failures
                    that have received media attention.

                    	 In March 2013, the VA Nebraska-Western Iowa Health Care System
                       closed the hospital’s operating room suite for about 10 weeks to perform
                       emergency repairs to their air handling system. Facility engineers stated
                       that the FCA identified the air handling system deficiencies at least
                       4 years prior to the critical failure. However, facility management
                       delayed developing an NRM proposal to address the deficiency because it
                       began design work to replace the medical facility in FY 2011. According
                       to the VISN Capital Asset Manager (CAM), insufficient major
                       construction funding delayed construction of the new facility by at least
                       8 years. At current major construction funding levels, construction will
                       not begin before FY 2021. Due to the air handling system repairs, the
                       facility is conducting risk assessments of other infrastructure deficiencies
                       to prevent further system failures before the major construction project is
                       completed. The facility estimated that they spent about $2.4 million to
                       perform 998 surgical procedures outside the medical facility during the
                       10 weeks that the operating room suite was closed.
                    	 In August 2013, the Martinsburg VA Medical Center found mold in an
                       air conditioning system, which required the facility to close its
                       domiciliary for over 5 weeks. This system was more than 10 years past
                       its useful life. Facility engineers stated that the FCA had identified the
                       deficient system more than 4 years before the critical failure


VA Office of Inspector General                                                                   8
                                                  Audit of VHA’s Non-Recurring Maintenance Program


                        occurred. Facility staff stated that they did not create a SCIP proposal to
                        repair the system until FY 2013 because of competing priorities for NRM
                        funds. The SCIP business case submitted by the facility did not highlight
                        the safety issues associated with the maintenance need and the proposal
                        was rejected. VA officials stated that if the safety concerns had been
                        identified, the proposal would have significantly improved its chances for
                        approval. The facility used emergency funds to address the breakdown,
                        but did not address other deficiencies in the domiciliary that the proposed
                        SCIP project would have addressed. During the 5-week shutdown of the
                        domiciliary, we estimated that the medical facility incurred about
                        $340,000 of hotel costs to house displaced veterans. In addition, the
                        facility was unable to enroll 69 new veterans into the treatment programs
                        provided by the domiciliary.

                    Identifying deficiencies with safety or assess risks timely is critical to ensure
                    VA medical facilities have enough time to correct the deficiencies before a
                    system fails. Although projects under $1 million are selected and approved
                    annually, a SCIP project proposal submitted in FY 2014 will be scored, and
                    if approved in FY 2015, will receive design funds in FY 2016 and
                    construction funds in FY 2017. With such a long time between proposal
                    submission and construction, it is critical that high-risk projects are
                    identified, proposed, and approved timely. In addition, the long funding
                    timeframe makes it difficult for VA medical facilities to address issues
                    quickly when a system shows signs of deteriorating more quickly than
                    anticipated.

FCA Risk            FCA contractors were required to assign deficiency grades based on the
Analysis Not        likelihood of an infrastructure system failing but were not required to
Performed
                    identify whether a system failure would result in risks to patient safety or
                    access to care. In addition, VA medical facilities do not perform an adequate
                    risk analysis of their FCA deficiencies to determine whether the deficiencies
                    pose patient safety risks or may delay access to care. VA’s SCIP Board and
                    VISN officials rely on VA medical facilities to provide project proposals to
                    address the facilities’ most significant maintenance needs. These officials
                    evaluate the maintenance needs and approve proposed projects based on the
                    project proposal descriptions. However, in many of the project proposals we
                    reviewed, these descriptions were brief and several were as short as a single
                    sentence.

                    With such little information available, it is difficult for approving officials to
                    quantify risks to patient safety or interruptions to care or to know the costs of
                    alternative solutions. VA officials stated that they updated SCIP safety
                    criteria and provided training to improve responses to business case safety
                    questions in FY 2014. However, VHA’s current NRM project prioritization
                    process provides inadequate assurance that projects to address patient safety
                    and access to care risks are submitted and approved.



VA Office of Inspector General                                                                      9
                                                 Audit of VHA’s Non-Recurring Maintenance Program


                    As a result of VHA’s growing maintenance backlog, it is critical that the
                    deficiencies which have the greatest impact on patient safety or access to care
                    are identified and addressed promptly. Without controls in place to assure
                    patient safety and access to care issues are prioritized, VHA is at higher risk
                    of unnecessary patient safety risks and potential interruptions to care to our
                    nations’ veterans.

Actual Repair       We compared the actual cost of correcting FCA deficiencies as identified by
Costs Are           VA medical center engineers to the contractors’ estimates and determined
Significantly
Higher Than
                    VHA likely spent more than double the contractors’ FCA estimates on its
FCA Estimates       completed projects.      In FY 2012, we estimated VHA spent about
                    $675 million to address FCA deficiencies valued at approximately
                    $314 million. This occurred because the repairs required about $362 million
                    more to complete than the FCA estimated. Following are examples that
                    illustrate unreliable FCA estimates.

                    	 In FY 2008, a facility’s FCA identified an electrical switchboard
                       deficiency and estimated it would cost about $63,000 to repair. In
                       FY 2010, the facility began a project to repair the deficiency which was
                       projected to cost about $410,000 according to the project’s Independent
                       Government Estimate.       The facility completed the correction in
                       FY 2012 at a cost about $371,000.
                    	 In FY 2006, a facility’s FCA identified an air handling deficiency and
                       estimated it would cost about $575,000 to repair. In FY 2008, the facility
                       began a project to correct the deficiency which was projected to cost
                       almost $2.3 million for the construction phase according to the project’s
                       Independent Government Estimate. A subsequent FCA conducted in
                       FY 2009 broke down the deficiency into several subcomponents at a
                       revised total cost of almost $1.5 million. The facility completed the
                       correction in FY 2014 at a cost of about $2.7 million.

                    In both of these examples, facility engineers confirmed that the scopes of
                    work only addressed what was necessary to correct the FCA deficiencies.

                    FCA cost estimates are unreliable because the cost estimates do not include
                    operational impact costs to correct the deficiency or contracting costs, and
                    there were no procedures in place to ensure cost estimates were reviewed
                    prior to FCA contractor payment. Cost estimates could be reviewed by
                    comparing a sample of the contractors’ cost estimates to historical project
                    costs to determine if an adjustment factor is needed. The FCA contractors
                    usually completed two medical facility FCA evaluations per week.
                    According to VA records, the 8 medical facilities we visited averaged about
                    43 buildings and more than 1 million square feet on each campus. In light of
                    identifying significant differences between the FCA provided cost estimates
                    and VHA’s experienced cost to address the deficiencies, we question the




VA Office of Inspector General                                                                  10
                                                    Audit of VHA’s Non-Recurring Maintenance Program


                    quality of the FCA assessments and the contractor’s ability to accomplish
                    such work in a short time frame.

                    Further, as a result of underestimating FCA costs, we estimated VHA’s
                    FY 2013 maintenance backlog was about $22.9 billion, approximately
                    $12.3 billion (115 percent) more than their current FCA estimate of about
                    $10.7 billion. Without accurate cost estimates, VHA is unable to provide a
                    reliable annual NRM budget request for resources needed to achieve their
                    goal of reducing VHA’s maintenance backlog.

NRM Projects        At the 8 VA medical facilities we visited, 150 of the 161 NRM projects
Not Completed       reviewed had executed a construction contract. The remaining 11 were
on Schedule
                    design-only projects without construction activity. Table 3 provides a
                    summary of the 150 NRM projects’ actual or expected timeliness.

                                 Table 3. Project Timeliness of NRM Projects Reviewed
                                                                      Number of       Percentage of
                         Project Timeline vs. Schedule                 Projects         Projects
                                                                      Reviewed          Reviewed
                     Met Initial Planned Date                              20              13
                     Within 6 Months                                       33              22
                     Over 6–12 Months Beyond                               23              15
                     Over 1–2 Years Beyond                                 40              27
                     Over 2 Years Beyond                                   34              23
                      Source: OIG analysis of VA provided project and contract data

                    VA medical facilities did not complete NRM projects on schedule because
                    VHA and VISN officials did not routinely monitor NRM project schedules.
                    Facility engineers complete a monthly PTR that shows the project phase,
                    current obligations levels, and percent of work completed. The PTR was
                    available to the VISN CAM and VHA’s Office of Capital Asset Management
                    Engineering and Support (OCAMES) officials.

                    The VISN CAMs we interviewed stated that their primary role was to
                    prioritize and approve projects and ensure that NRM funds were obligated by
                    the end of each fiscal year. They do not have specific project monitoring
                    requirements. For example, none of the VISN CAMs conducted on-site
                    inspections of the NRM projects that we reviewed and the CAMs did not
                    verify the accuracy of the PTR data. In addition, the VISN CAMs did not
                    routinely monitor the PTRs to identify and inform VHA of medical facilities’
                    NRM projects that were not meeting project milestones.




VA Office of Inspector General                                                                    11
                                                 Audit of VHA’s Non-Recurring Maintenance Program


                    NRM project delays also prevented new NRM projects from starting on
                    schedule and impeded facilities’ ability to address other infrastructure needs.
                    For example, in FY 2012 a medical facility’s NRM projects averaged
                    32 months behind schedule, with one project being over 68 months late.
                    These delays were so significant that the facility had to decline significant
                    NRM project funding the VISN had made available to the facility in
                    FY 2012. This prevented the medical facility from addressing their current
                    maintenance backlog of approximately $158.9 million.

                    As a result of insufficient project reviews and reporting, VHA cannot
                    demonstrate it is taking timely corrective actions on NRM projects that are
                    not meeting their project milestones.

Conclusion          Although VHA had reasonable assurance that NRM program funds were
                    used for allowable NRM purposes, they did not have an adequate process to
                    track how much NRM funds medical facilities spent toward addressing the
                    maintenance backlog. Therefore, VHA has not been able to adequately
                    identify how it is using NRM funds to achieve program goals. Without
                    adequate program management processes, VHA does not know whether they
                    are addressing their highest priority needs or if they will achieve their
                    performance goals. They also need to assess FCA deficiencies to identify
                    patient safety risks, develop a mechanism to accurately estimate its
                    maintenance backlog to develop reliable annual NRM budgets, and identify
                    NRM projects that are not meeting their milestones in order to take timely
                    corrective actions. Until these issues are addressed, VHA will continue to
                    lack assurance that it is effectively using NRM funds to correct their
                    facilities’ infrastructure deficiencies and meet the healthcare needs of
                    veterans.

                    Recommendations

                    1.	 We recommended the Under Secretary for Health establish a process to
                        track VA medical facilities’ expenditure of Non-Recurring Maintenance
                        Program funds toward addressing the maintenance backlog.
                    2.	 We recommended the Under Secretary for Health establish procedures to
                        ensure VA medical facilities’ projects address the Facility Condition
                        Assessment deficiencies as approved under the Strategic Capital
                        Investment Plan.
                    3.	 We recommended the Under Secretary for Health establish procedures to
                        identify non-recurring maintenance projects that are not meeting
                        milestones to ensure that timely corrective actions are taken.
                    4.	 We recommended the Under Secretary for Health develop clearly defined
                        criteria for assigning risk levels to building infrastructure systems
                        reviewed by Facility Condition Assessment contractors.



VA Office of Inspector General                                                                  12
                                                 Audit of VHA’s Non-Recurring Maintenance Program


                    5.	 We recommended the Executive in Charge for the Office of Management
                        and Chief Financial Officer increase financial accountability by
                        implementing standardized accounting procedures for tracking
                        non-recurring maintenance projects’ financial performance.
                    6.	 We recommended the Principal Executive Director, Office of
                        Acquisition, Logistics and Construction instruct contract engineers to
                        assign risk levels to identified maintenance deficiencies based on the
                        Veterans Health Administration criteria.
                    7.	 We recommended the Principal Executive Director, Office of
                        Acquisition, Logistics, and Construction review Facility Condition
                        Assessment estimating processes and procedures to ensure compliance
                        with industry best practices.
                    8.	 We recommended the Principal Executive Director, Office of
                        Acquisition, Logistics, and Construction review historical project costs to
                        determine an effective adjustment factor to better estimate contract costs
                        to complete the repair of identified maintenance deficiencies.

VHA                 The Under Secretary for Health concurred with Recommendations 1 through
Management          4 and provided corrective action plans. The Under Secretary stated that
Comments
                    VHA will continue to track NRM obligations and expenditures in the
                    Financial Management System and link to the associated projects in the
                    VHA Capital Asset Database, include reviews to ensure VA medical facility
                    projects address the FCA deficiencies as approved under the SCIP plan in a
                    timely manner, and review project milestones established in the project
                    application and take corrective action when necessary. VHA will also
                    develop clearly defined criteria for assigning risk levels to building
                    infrastructure systems reviewed by FCA contractors. VHA plans to have all
                    of the corrective actions implemented by September 30, 2014. Appendix D
                    provides the full text of the Under Secretary for Health’s comments.

Office of           The Executive in Charge for the Office of Management and Chief Financial
Management          Officer concurred with Recommendation 5 and provided a corrective action
and Chief
Financial
                    plan. The Executive in Charge stated that the Office of Management is in the
Officer             process of developing standardized accounting procedures to enhance
Management          financial accountability and track VHA’s NRM financial performance and
Comments            plans to have all of the corrective actions implemented by October 2014.
                    Appendix E provides the full text of the Executive in Charge for the Office of
                    Management and Chief Financial Officer’s comments.

Office of           The Principal Executive Director for the Office of Acquisition, Logistics,
Acquisition,        and Construction concurred with Recommendations 6 through 8 and
Logistics, and
Construction
                    provided corrective action plans. The Principal Executive Director stated the
Management          Office of Acquisition, Logistics, and Construction (OALC) will modify the
Comments            scope of the FCA contracts to require assessors to indicate the “Risk Level”
                    for grade D and F deficiencies within 120 days of receiving the criteria
                    defined by VHA in OIG Recommendation 4. OALC will also review FCA


VA Office of Inspector General                                                                  13
                                                Audit of VHA’s Non-Recurring Maintenance Program


                    estimating procedures to ensure procedures align with industry standards and
                    best practices. OALC’s Office of Construction and Facilities Management,
                    in cooperation with OCAMES and the VA medical facilities, will sample
                    completed VHA NRM projects and determine what can be done to align the
                    FCA estimate with contract costs. OALC plans to complete these studies by
                    September 30, 2014. Appendix F provides the full text of the Principal
                    Executive Director for the Office of Acquisition, Logistics, and
                    Construction’s comments.

OIG Response        The Under Secretary’s, Executive in Charge’s and Principal Executive
                    Director’s comments and corrective action plans are acceptable and
                    responsive to the intent of the recommendations. We will monitor
                    implementation of these planned actions and will close the recommendations
                    when we receive sufficient evidence demonstrating progress in addressing
                    the identified issues.




VA Office of Inspector General                                                               14
                                                Audit of VHA’s Non-Recurring Maintenance Program


Appendix A          Background

Allowable           In FY 2008, OCAMES issued guidance to fund renovation projects up to
Uses of NRM         $10 million through the NRM program. Prior to this change in guidance,
Funds
Increased
                    renovation projects exceeding $500,000 that included a change in the
Under               functional use of space required Minor Construction Appropriation funding.
OCAMES              This change increased the allowable uses of NRM funds to include projects
                    that changed functional use of space regardless of whether or not the project
                    addressed any FCA deficiencies.

                    VHA began funding CSI projects using NRM funds in FY 2009. A CSI
                    project can use up to $5 million to add space for five different strategic
                    clinical initiatives. These initiatives include:

                    	 Women’s health
                    	 Mental health
                    	 Polytrauma
                    	 Operation Enduring Freedom/Operation Iraqi Freedom/Operation New
                       Dawn clinics
                    	 High-cost/high-tech equipment installation
SCIP Strategic      Annually VA creates a new 10-year SCIP plan for each VA medical facility
Performance         that addresses the following eight strategic performance gaps.
Gaps
                    	 Access
                    	 Utilization
                    	 Workload
                    	 Space
                    	 FCA condition
                    	 Energy
                    	 Security
                    	 Emergency preparedness

Sustainment         OCAMES uses a Department of Defense sustainment model to calculate the
Model               NRM Program funds necessary to maintain VHA’s facilities in good
                    working order. The sustainment model estimates the annual resources
                    needed to sustain a building with no existing FCA deficiencies and prevents
                    building systems from becoming deficient. The sustainment model uses cost
                    factors to estimate the amount of resources needed based on the building’s
                    age, use, size, and geographical location.



VA Office of Inspector General                                                                15
                                                Audit of VHA’s Non-Recurring Maintenance Program


Appendix B          Scope and Methodology

Audit Scope         We conducted our audit work from December 2012 through
                    February 2014 to determine if VA medical facilities had effectively
                    addressed its most significant maintenance needs.

                    We identified NRM projects for our universe using multiple data sets from
                    the OIG Data Analysis Division. The Data Analysis Division extracted data
                    from VA’s Financial Management Systems’ payment history and vendor
                    files. The data sets included payments VA made for NRM projects during
                    the 12-month period, October 1, 2011, through September 30, 2012.

                    We developed a sampling methodology that reviewed all NRM projects
                    incurring expenditures over $50,000 during FY 2012 at each of the eight
                    sampled VA medical facilities. The eight facilities in our sample were:

                    	 Central Arkansas Veterans Healthcare System, Little Rock/North Little
                       Rock, AR
                    	 Southern Arizona VA Health Care System, Tucson, AZ
                    	 West Palm Beach VA Medical Center, West Palm Beach, FL
                    	 VA Central Iowa Health Care System, Des Moines, IA
                    	 Battle Creek VA Medical Center, Battle Creek, MI
                    	 Albany VA Medical Center: Samuel S. Stratton, Albany, NY
                    	 VA Caribbean Healthcare System, San Juan, PR
                    	 Tennessee Valley Healthcare System, Nashville/Murfreesboro, TN

                    For each selected NRM project, we evaluated whether it met VA funding
                    requirements under the NRM program, addressed identified maintenance
                    deficiencies, and determined if any NRM program policies were violated.

Methodology         We reviewed each of the 161 selected NRM projects’ proposal, approval,
                    related contracts, and visited project work locations. At each sample medical
                    facility, we reviewed the FCA and the facility’s plan to address its
                    maintenance backlog. We interviewed medical facility management and
                    finance and engineering staff to determine if projects were properly
                    approved, within budget, and on schedule. Additionally, we reviewed
                    governing laws, regulations, and related policies and procedures. We
                    discussed program requirements, organizational responsibilities, and
                    operational procedures with VA and VHA program management officials.

Fraud               We included audit steps to identify potentially fraudulent activities. In
Detection           addition, we developed specific audit steps to determine what controls, if




VA Office of Inspector General                                                                16
                                                 Audit of VHA’s Non-Recurring Maintenance Program


                    any, were in place to identify any potentially fraudulent NRM construction
                    transactions.

Data Reliability    To achieve the audit’s objectives, we relied on computer-processed data from
                    the VA’s Financial Management System. We assessed the reliability of the
                    systems’ data by tracking payment transactions to invoice records.
                    Additional data reliability tests included steps to identify any missing data in
                    key fields and data outside of our period of performance. Based on these
                    tests, we concluded the data used was sufficiently reliable to meet our audit’s
                    objective.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objectives. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                   17
                                                   Audit of VHA’s Non-Recurring Maintenance Program


Appendix C 	 Statistical Sampling Methodology

                    We selected a stratified random sample of NRM expenditures to identify all
                    NRM projects that incurred expenses in FY 2012. We then sampled those
                    projects to determine if NRM funds were used appropriately.

Population	         The NRM program spent about $1.8 billion in FY 2012. To ensure all NRM
                    projects were captured in our sample population, we included all NRM
                    payment transactions processed in FY 2012. Our sample included six ARRA
                    projects and four projects approved under SCIP.

Sampling            We stratified the population into four geographical regions with roughly
Design              equal amounts of NRM expenses. We selected contiguous VISNs which
                    resulted in the lowest variance of expenditures between regions and provided
                    common geographical distinctions. The VISNs within the four regions are
                    shown in Figure 3.

                                        Figure 3. VISN Geographical Regions




                      Source: VA OIG analysis of NRM FY 2012 expenditures

                    We selected two VA medical facilities from each region and reviewed all
                    projects with NRM expenditures of $50,000 or more during FY 2012. This
                    resulted in a sample of 161 projects and allowed us to capture over
                    95 percent of the expenditures and maintain acceptable degrees of freedom at
                    the eight sampled sites.


VA Office of Inspector General                                                                  18
                                                      Audit of VHA’s Non-Recurring Maintenance Program


Weights             We calculated estimates in this report using weighted sample data. Sampling
                    weights were computed by taking the product of the inverse of the
                    probabilities of selection at each stage of sampling. We performed a
                    two-stage random site selection. Each stage used expenditures equally as
                    weighting for selection.

Projections         We used a 90 percent confidence interval and the mid-point of our estimates
and Margins of      for our projections. The margins of error and confidence intervals are
Error
                    indicators of the precision of the estimates. If we repeated this audit with
                    multiple samples, the confidence intervals would differ for each sample, but
                    would include the true population value 90 percent of the time. Table 4
                    provides our projections and margins of error of FY 2012 NRM expenditures
                    by category.

                    Table 4. Projections and Sampled FY 2012 Non-Recurring Maintenance
                                              Funds (in millions)
                                                                             90 % Confidence
                                            Sample           Margin              Interval               CV
                         Category
                                            Estimate         of Error        Lower        Upper         (%)
                                                                              90%          90%
                      Infrastructure
                                                 $307            $104         $203         $411         20.5
                      Sustainment
                      Maintenance
                                                 $675            $273         $402         $948         24.4
                      Backlog

                      CSI                        $225            $158           $67        $383         42.4

                      Renovation                 $397            $113         $284         $510         17.2

                      Green Energy             *$241             N/A           N/A         N/A          N/A

                      Total NRM
                                               $1,845
                      Expenditures
                      Source: VA OIG statistical analysis of sampled VA medical facilities Non-Recurring
                      Maintenance Projects
                      * About $241 million in Green Energy expenditures is an actual total therefore figure is
                      unadjusted




VA Office of Inspector General                                                                                   19
                                                    Audit of VHA’s Non-Recurring Maintenance Program


                    Table 5 provides our projections and margins of error of the percentage of
                    FY 2012 NRM expended by category.

                    Table 5. Projections and Sampled FY 2012 Non-Recurring Maintenance
                                          Funds (Percentage of Total)
                                                                      90 % Confidence
                                         Sample         Margin            Interval             CV
                         Category
                                         Estimate       of Error      Lower      Upper         (%)
                                                                       90%         90%
                      Infrastructure
                                            19.2%          6.5%        12.7%      25.7%        20.5
                      Sustainment
                      Maintenance
                                            42.1%        17.0%         25.1%      59.1%        24.4
                      Backlog

                      CSI                   14.0%          9.9%         4.2%      23.9%        42.4

                      Renovation            24.8%          7.1%        17.7%      31.8%        17.2

                      Source: VA OIG statistical analysis of sampled VA medical facilities Non-Recurring
                      Maintenance Projects

                    Since the purpose of the sample was to estimate the total amount spent for
                    each category, we adjusted our sample category results to equal the actual
                    FY 2012 spending of about $1.8 billion rather than the over $1.7 billion total
                    sample projection (except green energy which was not an estimate). We did
                    not review about $117 million in NRM expenses not included in our sample
                    due to timing differences and for projects which spent below $50,000 in
                    FY 2012. Although we believe the projects contained similar compositions
                    to those which we sampled, if they varied significantly we would expect no
                    material difference to our report’s conclusions and recommendations.




VA Office of Inspector General                                                                        20
                                                         Audit of VHA’s Non-Recurring Maintenance Program


Appendix D            Under Secretary for Health Comments



                 Department of
                 Veterans Affairs
                                                                Memorandum
         Date:   March 28, 2014

         From:   Under Secretary for Health (10)

         Subj:   OIG Draft Report, Veterans Health Administration Audit of Non-Recurring Maintenance
                 Program (VAIQ 7445328)

           To:
                 Assistant Inspector General for Audits and Evaluations (52)


                 1. I have reviewed the draft report and concur with recommendations 1-4 of the draft
                 report. Attached is the Veterans Health Administration’s corrective action plan to
                 address the report’s recommendations.

                 2. Thank you for the opportunity to review the draft report. If you have any questions,
                 please contact Karen Rasmussen, M.D., Director Management Review Service (10AR)
                 at (202) 461-6643, or by email at VHA10ARMRS@va.gov.




                 Attachment




VA Office of Inspector General                                                                             21
                                            Audit of VHA’s Non-Recurring Maintenance Program


                      VETERANS HEALTH ADMINISTRATION (VHA)
                                   Action Plan

OIG Draft Report, Veterans Health Administration Audit of Non-Recurring
Maintenance Program

Date of Draft Report: February 20, 2014

Recommendations/                         Status                      Completion
Actions                                                              Date

Recommendation 1. We recommend the Under Secretary for Health establish a
process to track VA medical facilities’ expenditure of NRM funds toward
addressing the maintenance backlog.
VHA Comments

Concur

VHA concurs with the recommendation to track VA medical facilities’ expenditure of
non-recurring maintenance (NRM) funds toward addressing the maintenance backlog.
VHA will continue to track NRM obligations and expenditures in the Financial
Management System (FMS) and link to the associated projects in the VHA Capital
Asset database via the purchase order (PO) numbers. Local facilities management
staff will identify the percentage of each project dedicated to each defined project
category in the project application in VHA Capital Asset database, allowing for detailed
reporting of obligations and expenditures by project category, as recommended.

                                  In process                  September 30, 2014

Recommendation 2. We recommend the Under Secretary for Health establish
procedures to ensure VA medical facilities projects address the Facility Condition
Assessment deficiencies as approved under the Strategic Capital Investment
Plan.

VHA Comments

Concur

VHA concurs with the recommendation. VHA has supported the Strategic Capital
Investment Plan (SCIP) process and will continue to ensure VA medical facilities
projects address the Facility Condition Assessment deficiencies as approved under the
Strategic Capital Investment Plan in a timely manner. VHA will include reviews to
ensure FCA deficiencies are included with projects correcting deficiencies.

                                  In process                  September 30, 2014



VA Office of Inspector General                                                           22
                                             Audit of VHA’s Non-Recurring Maintenance Program


Recommendation 3. We recommend the Under Secretary for Health establish
procedures to identify non-recurring maintenance projects that are not meeting
milestones to ensure that timely corrective actions are taken.

VHA Comments

Concur

VHA will review project milestones established in the project application and take
corrective action when necessary.

                                       In process                   September 30, 2014

Recommendation 4. We recommend the Under Secretary for Health develop
clearly defined criteria for assigning risk levels to building infrastructure systems
reviewed by Facility Condition Assessment contractors.

VHA Comments

Concur

VHA will develop clearly defined criteria for assigning risk levels to building 

infrastructure systems reviewed by Facility Condition Assessment (FCA) 

contractors. The criteria will consider safety, security, and current and/or future space 

utilization. 


                                       In Process                   September 30, 2014


Recommendation 5. We recommend the Executive in Charge for the Office of
Management and Chief Financial Officer increase financial accountability by
implementing standardized accounting procedures for tracking NRM projects’
financial performance.

The Executive in Charge for the Office of Management and Chief Financial Officer will
address this recommendation.

Recommendation 6. We recommend the Principal Executive Director, Office of
Acquisition, Logistics and Construction instruct contract engineers to assign risk
levels to identified maintenance deficiencies based on VHA criteria.

The Principal Executive Director, Office of Acquisition, Logistics, and Construction will
address this recommendation.

Recommendation 7. We recommend the Principal Executive Director, Office of
Acquisition, Logistics, and Construction review Facility Condition Assessment
estimating processes and procedures to ensure compliance with industry best
practices.


VA Office of Inspector General                                                            23
                                            Audit of VHA’s Non-Recurring Maintenance Program




The Principal Executive Director, Office of Acquisition, Logistics, and Construction will
address this recommendation.

Recommendation 8. We recommend the Principal Executive Director, Office of
Acquisition, Logistics, and Construction review historical project costs to
determine an effective adjustment factor to better estimate contract costs to
complete the repair of identified maintenance deficiencies.

The Principal Executive Director, Office of Acquisition, Logistics, and Construction will
address this recommendation.




Veterans Health Administration
March 2014




VA Office of Inspector General                                                           24
                                                     Audit of VHA’s Non-Recurring Maintenance Program


Appendix E            Executive in Charge for the Office of Management and
                      Chief Financial Officer Comments



                   Department of
                   Veterans Affairs                           Memorandum
           Date:   April 9, 2014

          From:    Executive in Charge, Office of Management, and Chief Financial Officer (004)

           Subj:   VA Office of Inspector General (OIG) Draft Report: Veterans Health
                   Administration, Audit of Non-Recurring Maintenance Program       (Project
                   Number 2013-00589-R8-0033)
            To:    Assistant Inspector General for Audits and Evaluations (52)


                   1. The Office of Management (OM) appreciates the opportunity to review the
                   OIG draft report on Veterans Health Administration (VHA’s) Non-Recurring
                   Maintenance (NRM) Program. I concur with the report’s findings and
                   recommendations.

                   2. In terms of OIG Recommendation #5 on page 13 of the report, OM is in the
                   process of developing standardized accounting procedures to enhance
                   financial accountability and track VHA’s NRM financial performance. OM is
                   developing these procedures and will require implementation in October 2014.

                   3. If you have any questions, please call me or have a member of your staff
                   contact James M. Sullivan, Director, Office of Asset Enterprise Management,
                   at 202-461-6671.




                   Attachment




VA Office of Inspector General                                                                    25
                                                       Audit of VHA’s Non-Recurring Maintenance Program


Appendix F            Principal Executive Director of Office of Acquisition,
                      Logistics, and Construction Comments



                 Department of
                 Veterans Affairs
                                                                  Memorandum
         Date:   April 18, 2014
        From:    Principal Executive Director, Office of Acquisition, Logistics, and
                 Construction (003)

         Subj:   Revised Draft Report, Audit of VHA’s Non-Recurring Maintenance Program,
                 Project Number 2013-00589-R8-0033 (VAIQ 7462420)

          To:
                 Assistant Inspector General for Audits and Evaluations (52)


                 1. The Office of Acquisition, Logistics, and Construction (OALC) has
                 reviewed the revised draft report, “Audit of VHA’s Non–Recurring
                 Maintenance Program.”

                 2. OALC respectfully submits the following responses to Recommendations 6–8:

                      OIG Recommendation 6: We recommend the Principal Executive
                      Director, Office of Acquisition, Logistics, and Construction instruct
                      contract engineers to assign risk levels to identified maintenance
                      deficiencies based on VHA criteria.

                      OALC Comment: Concur: OALC will utilize the Veterans Health
                      Administration (VHA) prepared criteria for assigning risk levels per the
                      subject Office of Inspector General (OIG) Report Recommendation #4:
                      “We recommend the Under Secretary for Health develop clearly defined
                      criteria for assigning risk levels to building infrastructure systems
                      reviewed by Facility Condition Assessment contractors.” This
                      recommendation will be followed by modifying the scope of the Facility
                      Condition Assessment (FCA) contracts so that assessors are required to
                      indicate the “Risk Level” for grade D and F deficiencies. A column will be
                      added to the FCA/Capital Asset Inventory database in which an entry
                      can be made indicating the risk level.




VA Office of Inspector General                                                                      26
                                                    Audit of VHA’s Non-Recurring Maintenance Program




               Page 2

               Subj: Revised Draft Report, Audit of VHA’s Non-Recurring Maintenance Program
               Project Number 2013-00589-R8-0033 (VAIQ 7462420)


                   Target Completion Date: OALC will implement the new requirement to
                   assign Risk Level in accordance with the VHA prescribed criteria within 120
                   days of receiving the criteria defined by VHA in OIG Recommendation 4.
                   FCA contracts will include VHA-specified criteria to assign the Risk Level for
                   grade D and F deficiencies when performing assessments.

                   OIG Recommendation 7: We recommend the Principal Executive Director,
                   Office of Acquisition, Logistics, and Construction review Facility Condition
                   Assessment estimating processes and procedures to ensure compliance
                   with industry best practices.

                   OALC Comment: Concur: OALC will review estimating procedures to
                   ensure procedures align with industry standards and best practice.

                   Target Completion Date: OALC will implement a study to review FCA
                   estimating procedures to ensure procedures match both Department of
                   Veterans Affairs (VA) standards and best practices in the industry. Further,
                   VA will review the last two FCAs completed to ensure the architect/engineer
                   followed established procedures. The study will be completed no later than
                   September 30, 2014. If the review indicates changes are required in FCA
                   estimating procedures the new procedures will be incorporated in the Fiscal
                   Year (FY) 2015 FCA Program.

                   OIG Recommendation 8: We recommend the Principal Executive Director,
                   Office of Acquisition, Logistics, and Construction review historical project
                   costs to determine an effective adjustment factor to better estimate contract
                   costs to complete the repair of identified maintenance deficiencies.

                   OALC Comment: Concur: OALC Office of Construction and Facilities
                   Management (CFM) will follow OIG’s recommendation on report page 10,
                   “Cost estimates could be reviewed by comparing a sample of the contractors
                   cost estimates to historical project costs to determine if an adjustment factor
                   is needed.” A sampling of completed VHA non-recurring maintenance
                   (NRM) projects will be reviewed by CFM, VHA Office of Capital Asset
                   Management Engineering and Support (OCAMES) and the VA medical
                   center stations. Based on this review OALC will determine what can be
                   done to align the FCA estimate with contract cost.




VA Office of Inspector General                                                                       27
                                                   Audit of VHA’s Non-Recurring Maintenance Program




                Page 3

                Subj: Revised Draft Report, Audit of VHA’s Non-Recurring Maintenance
                Program Project Number 2013-00589-R8-0033 (VAIQ 7462420)


                    Target Completion Date: OALC will evaluate selected NRM projects
                    and FCA estimates to determine the reasons FCA cost estimates and
                    contract cost are not aligned. The study will be completed by September
                    30, 2014. If corrections to estimates or process are determined they will
                    be implemented with the FY 2015 FCA Program.

                3. OALC appreciates the opportunity to comment on your draft report.
                Should you have any questions regarding this submission, please contact
                Shana Love Holmon, at (202) 632-4606 or shana.love-holmon@va.gov.




VA Office of Inspector General                                                                  28
                                         Audit of VHA’s Non-Recurring Maintenance Program


Appendix G          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments	   Matthew Rutter, Director
                                         Kevin Day
                                         Chris Enders
                                         Barry Johnson
                                         William Maroon
                                         Thomas Phillips
                                         Steven Toom
                                         Orlando Velasquez
                                         Theresa Zoun




VA Office of Inspector General                                                        29
                                               Audit of VHA’s Non-Recurring Maintenance Program


Appendix H          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




              This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                              30
